<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                         ORGANIZATIONAL MEETING

=======================================================================

                            BUSINESS MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, FEBRUARY 9, 2005

                               __________

      Printed for the use of the Committee on House Administration













                 U.S. GOVERNMENT PRINTING OFFICE

99-621                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001










                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California
JOHN T. DOOLITTLE, California          Ranking Minority Member
THOMAS M. REYNOLDS, New York         ROBERT BRADY, Pennsylvania
CANDICE S. MILLER, Michigan          ZOE LOFGREN, California

                           Professional Staff

                     Paul Vinovich, Staff Director
                George Shevlin, Minority Staff Director
















                         ORGANIZATIONAL MEETING

                      WEDNESDAY, FEBRUARY 9, 2005

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:45 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
[chairman of the committee] presiding.
    Present: Representatives Ney, Ehlers, Mica, Doolittle, 
Reynolds, Miller, Millender-McDonald, and Brady.
    Also present: Representative Hoyer.
    Staff present: Jeff Janas, Professional Staff Member; Fred 
Hay, General Counsel; Paul Vinovich, Staff Director; George 
Shevlin, Minority Staff Director; Charles Howell, Minority 
Chief Counsel; Matt Pinkus, Minority Professional Staff Member; 
and Tom Hicks, Minority Professional Staff Member.
    The Chairman. The Committee will come to order.
    Today the Committee on House Administration is holding its 
first hearing of the 109th Congress and will be adopting our 
committee rules and oversight plan for the 109th Congress. In 
addition, time permitting, we will be voting to report a 
resolution favorably to the House dismissing an election 
contest arising from the Sixth Congressional District of 
Tennessee.
    Before I proceed any further, I would like to take a moment 
to welcome all of our members of the committee for this 
Congress and congratulate our new Ranking Member, the 
Congresswoman from California, Juanita Millender-McDonald. And 
she is no stranger to the committee. She has been on the 
committee. And she and I share expectations for a productive 
Congress, and I look forward to working with our new Ranking 
Member on a lot of important issues, and welcome.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, so much. 
And let me thank you for the call that you made to me upon my 
appointment to this post, and it was very gracious for you to 
do that. I also would like to thank our esteemed leader, the 
Honorable Nancy Pelosi, for appointing me. I think it fits 
right in with her strong leadership and her total commitment to 
diversity. And I thank all of the members with whom I have had 
the pleasure to work with in the capacity as a member and look 
forward to working with you just one seat over. Thank you so 
much.
    The Chairman. Also would be remiss if I didn't note we have 
had two previous Ranking Members, Congressmen Larson and Hoyer. 
They were wonderful to work with, and very pleased to have you 
also.
    Ms. Millender-McDonald. May I please say for the record 
that I follow behind very large shoes, literally, but 
nonetheless extremely effective, in Mr. Hoyer and then Mr. 
Larson. And I will miss him, but he did extraordinary work, and 
I am going to see if I can follow in his footsteps.
    Mr. Ehlers. If I may, Mr. Chairman, I have worked with Ms. 
Millender-McDonald on other committees, plus we have a personal 
friendship, and I can assure you you won't be able to fill 
their shoes because you are far too petite for that, but you 
will more than fill the job, and I am very pleased to see you 
in this position and looking forward to working with you.
    The Chairman. Speaking of Michigan, I want to extend an 
enthusiastic welcome to our newest member, the gentlewoman from 
Michigan, Mrs. Candice Miller. And even as an Ohio State 
graduate, I am happy to have you on this committee. But it is a 
pleasure having you. And also if people aren't aware, not only 
is she one of the great Members of the House, but her past 
background and knowledge of elections as a secretary of state 
is a real addition to this committee. Welcome.
    Mrs. Miller. Thank you, Mr. Chairman. I certainly 
appreciate the invitation to serve on this distinguished 
committee. This committee has a high degree of respect and 
regard on both sides of the aisle. In my background as a former 
Secretary of State, I am delighted that we will be taking up 
the subject of HAVA, but I also had a lot of administrative 
kinds of responsibilities in my background as well. So with the 
kind of high degree of respect that this committee has earned, 
being very even-handed and running the mechanics of the House, 
it is something I have a great deal of interest in, and 
certainly with the respect that you have, Mr. Chairman, 
throughout the Chamber, I am really looking forward to serving 
on this committee. Thank you.
    The Chairman. Of course, returning to the committee, most 
of our Republican members--Mr. Linder is on another committee, 
and we appreciate Mr. Linder's service. We have Congressman 
Ehlers from Michigan, Congressman Mica from Florida, 
Congressman Doolittle from California and Congressman Tom 
Reynolds from New York. Certainly last, but certainly not 
least, on the Minority side, the honorable gentleman from 
Pennsylvania Mr. Brady is returning, and we are happy to have 
him.
    So we are really pleased to have all the members, and we 
are still waiting one more additional appointment for the 
Minority side, and when that occurs, we will look forward to 
welcoming that member as well.
    Ms. Millender-McDonald. One or two appointments?
    The Chairman. At least for the 109th there is one more.
    I look forward to working with all of you during the next 2 
years and the important work that we have. In addition to our 
responsibilities of campaign election jurisdiction, we have 
already begun our work.
    The primary responsibility of the Committee on House 
Administration is to make sure that the House runs smoothly so 
Members can better represent their constituents. I plan to 
continue to work with the committee improving the tools and 
technology that Members and staff have at their disposal. We 
will look at ways that this committee can assist Members and 
the committees of the House in better serving the people who 
elect all of us to this institution.
    As part of this effort, we are in the process of completing 
a House-wide technology assessment, and that will provide a 
framework from which this committee can direct and authorize 
important changes in technology. And Mr. Ehlers a decade ago 
led this charge here in Congress and has continued to do that. 
But this assessment, I think, which has been done on a 
bipartisan basis, is going to be very healthy for the House, 
because if we can better improve our technology,we better serve 
the constituency across the country that we represent.
    In addition, let me emphasize that safety and security of 
all who serve, work or visit this institution remain the 
highest priority of this committee as we continue to build on 
the many improvements since September 11 of 2001. This 
committee prior to that spent a small amount of time on 
security. That has been changed in our lives on the Hill, our 
family has changed, but we owe it to protect the staff and the 
visitors to this great institution so that security will 
continue.
    And at this time, also, I would like to conclude by 
welcoming again our Ranking Member and see if you have some 
remarks.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. And I 
concur with your sentiments in that we have begun to do a lot 
of things in terms of better Member services, advance 
technology expansion, and there are many more things that we 
will need to do. I look forward to working with you.
    I have spoken with some of the department heads. I am 
interested in looking at the perimeters around the Capitol and 
the House offices to ensure that we will continue with the 
security phase of the proposal we have before us.
    I would like to extend my welcome to Mrs. Miller. It is 
indeed a pleasure to have another woman seated here on this 
dais, and we look forward to working with you as well.
    Mr. Chairman, that is about it for me.
    The Chairman. Any other remarks? If not, we will go onto 
the business at hand.
    Before we proceed with the adoption of the committee rules 
and oversight plan, I do want to take the opportunity as a 
final matter of old business to notify the committee that no 
action was taken under interim authority requiring full 
committee approval by the Chair. We will certainly bring all 
the members and particularly our new Ranking Member completely 
up to speed on all the matters currently pending before the 
committee.
    The Chair now lays before the committee the resolution 
adopting the committee rules for the 109th Congress. The 
committee rules presented only contain one change agreed to by 
the Majority and the Minority from the rules which govern this 
committee for the 108th Congress; that is to reflect a change 
made to the House rules and include the rule which grants the 
chairman the authority to offer a privileged motion to go or 
agree to conference whenever deemed appropriate. This change 
eliminates the need for a pro forma unanimous consent request. 
Is there any discussion on this?
    Ms. Millender-McDonald. Perhaps not on what you have said, 
but I do have an amendment at the desk, Mr. Chairman.
    The Chairman. Gentlelady has an amendment at the desk, but 
there is no objection?
    Ms. Millender-McDonald. No.
    The Chairman. And would the gentlelady like to explain her 
amendment?
    Ms. Millender-McDonald. I do have an amendment that was 
previously circulated. This amendment seeks to provide an 
opportunity for the Minority to inquire into unethical or 
unlawful conduct by any senior agency official under the 
jurisdiction of the committee. If adopted, the amendment would 
add a 19th rule. This rule would apply and allow the Minority 
to petition the Chair for a hearing on unethical and unlawful 
conduct by a government official. If the hearing was not held 
within a month of the request, then the Minority would have a 
right to conduct such a hearing consistent with House rule X1, 
clauses 11(2)(b) and (2)(c), and consistent with both committee 
rules and House rules regarding notice and the compulsion of 
testimony on the production of evidence.
    Mr. Chairman, you have always been most accommodating of 
the Minority's interests and concerns in the past, and we look 
forward to our continued partnership in exploring what went 
right and what went wrong in the 2004 election. Although the 
situation is unlikely, particularly on this committee, my 
amendment simply provides a means for the Minority to pursue a 
concern which might not be of equal interest to the Chair. In 
that unlikely event, the Minority could still pursue its 
concern in a manner consistent with House rules and committee 
rules.
    And so, Mr. Chairman, I requested the Office of the 
Parliamentarian to review my language and have been assured 
that nothing in my amendment is inconsistent with House rules. 
So I yield to you, Mr. Chairman.
    The Chairman. Even though I don't agree with the amendment, 
it is germane, and I recognize that. Speaking to the 
gentlewoman's amendment, I would like to say I do appreciate 
your point of view and your serious nature of the amendment. I 
can't agree to its adoption, but I would notice a longstanding 
prerogative of the Majority when Democrats were in charge of 
the Chamber, now under the Republicans, to call for and conduct 
hearings appropriate to the jurisdiction of this committee and 
not to be put in a position to be forced by the Minority to 
conduct a hearing. That has been longstanding.
    I will say that is the intention, of this chairman and this 
Majority to conduct thorough oversight over the agencies under 
the jurisdiction of this committee, and we have actually done 
it--I can site examples with the Smithsonian, the controversy 
at the zoo and the outcome of that, and we did address that 
issue head on. I would expect nothing short of full 
participation and opportunity by the Minority to conduct a 
vigorous examination of the issues as part of the process, and 
that should be the way it is done.
    In addition, I would like to remind the Minority, pursuant 
to the House rules and the rules of this committee now before 
us, adoption of proposed committee rule 9(c) specifically 
provides, as it has in the past Congresses, the following, and 
I would like to read it: When any hearing is conducted by the 
committee upon any measure or matter, the Minority party 
members on the committee shall be entitled, and it is a shall, 
upon request to the Chair by a majority of those Minority 
members, before the completion of such hearing, to call 
witnesses selected by the Minority to testify with respect to 
that measure or matter during at least 1 day of hearings.
    So there is something built into the rules. The purpose of 
that rule is to protect, frankly, the rights of the Minority 
and their ability to fully examine the issues in hearing before 
the committee.
    I appreciate the seriousness with which you approach this. 
I can't agree to support it, but I think inherent is the 
ability of the Minority to call witnesses, and I do assure you 
as issues come up, even though I am not going to support this, 
we will be very sensitive to pursuing anything that occurs.
    Is there any further discussion on it? Mr. Mica?
    Mr. Mica. I have been through two chairmen on the Majority 
side and three Ranking Members, and while I think I see some of 
the attempt--the intent from the Minority in formalizing a rule 
such as you have proposed here, I really don't think it is 
necessary.
    I look back to the days of the Hoyer-Thomas reign, and I 
felt like I was a referee in a food fight, but we have come a 
long way, and Mr. Larson operated, I think, with the Majority.
    We have important responsibilities, and I don't think it is 
necessary, in fact, to formalize. And if it was a different 
situation, I might even agree with the Minority, but I think 
working together and actually respecting the rights of the 
Minority not just with this formalized petition process, but at 
any time that there should be an investigation or review when 
the Ranking Member and the full committee Chair decide that and 
work together, I think both sides benefit from that type of a 
system.
    So I will reluctantly oppose that, but I do rely on the 
good faith, I think, of our Chair and the Ranking Member to 
bring these issues, these investigative matters forward and 
then decide, and pledge also if you don't get that support--I 
was in the Minority. I am part of the Majority now, Vern was, 
too, and I saw abuse. And I wouldn't--I have always used that 
as the model you don't want. And that is a cooperative effort 
particularly on this committee.
    I will oppose the amendment with that caveat to respect the 
right of the Minority to call for investigations and to proceed 
as we should on any matters that you feel are of vital interest 
to the committee and the Congress and the country. Thank you.
    The Chairman. Any other comments? Questions on the 
amendment?
    Those in favor of the amendment will say aye.
    Those opposed will say nay. Nay.
    The amendment has failed.
    Recognize Mr. Ehlers for the purpose of offering a motion 
to adopt the rules.
    Mr. Ehlers. Mr. Chairman, I move that the resolution 
adopting the committee rules for the 109th Congress be 
approved.
    The Chairman. Question is on the motion. Those in favor of 
the motion will say aye.
    Those opposed will say nay. Nay.
    The motion is agreed to, and the committee rules of the 
109th Congress are approved.
    The Chair now lays before the committee a resolution 
adopting the oversight plan for the 109th Congress. The 
committee oversight plan presented contains revisions proposed 
by both the Minority and the Majority to reflect changes to our 
oversight priorities primarily to reflect the continued need to 
focus on the security of the Capitol complex as well as changes 
to the section related to our jurisdiction in Federal election 
law. In addition, we have included new mention of our intention 
to oversee issues relating to the continuity of Congress and 
separation incentive programs or buyouts in the legislative 
branch.
    Any discussion on it? Mr. Ehlers?
    Recognize Mr. Ehlers for the purpose of offering a motion.
    Mr. Ehlers. Mr. Chairman, I move that the resolution 
adopting the committee oversight plan for the 109th Congress be 
approved.
    The Chairman. Question is on the motion. Those in favor of 
the motion will say aye.
    Those opposed will say nay.
    The motion is agreed to, and the committee oversight plan 
for the 109th Congress is approved.
    Mr. Ehlers. Mr. Chairman, if I may just be permitted to 
reminisce. It is over 10 years now since I have come on this 
committee, and in terms of the oversight that we have done 
during that time, it is just remarkable the change that has 
occurred in the House. And this is not meant to be a partisan 
speech, but when we started reviewing the operation of the 
House, the operation of the House officers, we ordered an 
audit, an outside audit, the first time in the history of the 
Congress. The books of the House had not been audited for 50 
years internally and never externally. And the auditors came 
back and said, we can't give an opinion because the books of 
the House are in such a mess, we can't make sense of them.
    And I was reminded of this recently when a reporter called 
and asked me to review the progress of the last 10 years, and 
that is one little story I told them. But when you look at the 
internal operation of the House, we have really gone through a 
major change from the good old boy system, the patronage 
system, and keeping the books on ledger cards in pencil, I 
might add, to a professionally run operation. And I think we 
have to pat ourselves on the back a bit and certainly commend 
the House, the Chief Administrative Officer and the employees 
of the House, for the incredible degree of professionalism that 
we enjoy today in the House.
    And just a simple matter of the way vouchers are handled, I 
mean, you were here at the time, too, and you recall, it might 
take us 6 to 8 weeks to get reimbursed for our air travel. 
Today it is 2 days after the voucher is submitted. And that is 
one small example of the improvements that have been made.
    I think this committee deserves a little pat on the back, 
and I think the Members of the House do, too, for bringing the 
House into the 21st century and developing computerized 
financial accounting systems and really doing a good job 
running the House. And I wanted to get that statement on the 
record.
    The Chairman. Thank the gentleman, and also note when I 
came here a decade ago, Mr. Thomas became the chairman, and Mr. 
Hoyer, there were some contentious arguments in the beginning 
of how this structure was going to go, and it ended up at the 
end of the day in a good way. Used to be you couldn't do 
anything here. Nothing was allowed, and the Chair had to daily 
do 200-some vouchers. It wasn't the way to continue on here. 
And I think it gave Members a lot more ability and discretion 
with their accounts and ability to service their constituents.
    That is one of the changes, technology. I mean, when you 
look back, I think there were a lot of changes that were 
started and have continued to this day, and we may have 
disagreements here and there, but I think the good thing about 
this committee is that it respects the institution of the 
House, and the Members have done that. And we will say our 
peace and have our arguments, but the idea is that the Members 
and the staff can better service the constituents across the 
country. And with it, the new technology meanstens of thousands 
or hundreds of thousands of people now can see the Congress as this is 
broadcast today.
    I think it is a lot of great changes, in the last 10 years, 
but the gentleman is correct, and you have been a big part of 
it, change doesn't come without a lot of work.
    Ms. Millender-McDonald. Mr. Chairman, I appreciate that 
historical perspective, Mr. Ehlers, because it is important for 
this committee to ensure that the Members have the capabilities 
of reaching out beyond the scope of our own constituency. But 
we have brought into this place advanced technology now that 
really expands our interaction with the public. When I was out 
on the campaign trail, there were many who said, ``we don't 
have time to look at C-SPAN, but we can contact you with e-mail 
and converse with you there.'' I think any time you are dealing 
with the people's House, it should be as professional as it 
should be, and I commend this committee for the work they have 
done and the work we are setting out to do for the continuation 
of that professionalism.
    The Chairman. Thank the gentlelady.
    Mr. Ehlers.
    Mr. Ehlers. One quick comment on that, and that is perhaps 
one of the biggest changes. When I came here, I was astounded 
because I was familiar with computers and e-mail. It was easier 
to e-mail Moscow or Timbuktu than to send an e-mail 20 feet 
down the hall to a colleague. And as a result of what we have 
done today, our e-mail in our office outnumbers our U.S. mail 
about 5 or 8 to 1, and that is total turnaround. And we have 
made House documents available to the public for the first 
time, and so the average citizen can know as much as a paid 
lobbyist. And I think those are important achievements.
    The Chairman. Appreciate the Member's comments.
    Our next item on the agenda is a resolution dismissing an 
election contest arising from the Sixth Congressional District 
from Tennessee. The clerk will read the motion.
    The Clerk. Resolved: That the election contest relating to 
the office of Representative from the Sixth Congressional 
District of Tennessee is dismissed.
    The Chairman. Chair recognizes the gentlelady from 
California.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    This is a bipartisan agreement that the election contest 
relating to the Sixth District of Tennessee is completely 
frivolous. This is the same contest by the same constituent and 
minor candidate, making the same erroneous claims, which was 
unanimously rejected by this committee and by the full House 2 
years ago. It should be dismissed without wasting any 
additional time. Therefore, I move that the committee order 
reported favorably to the House an original resolution, the 
text of which is before the members, to dismiss the election 
contest from the Sixth District of Tennessee.
    The Chairman. I would note that this is completely 
frivolous and agree with the gentlelady.
    And the question is on the motion. Those in favor of the 
motion will say aye.
    Those opposed will say nay.
    Motion is agreed to, and the resolution dismissing the 
election contest will be reported favorably to the House.
    Again, I want to thank everybody for being here. We have 
our brand new appointed member that has now arrived; is that 
correct, Mr. Hoyer?
    Mr. Hoyer. No, sir, but I appreciate the chairman allowing 
me to sit in the seat of the unappointed member.
    The Chairman. We just praised you quite a lot, so----
    Mr. Hoyer. Sorry I was late.
    Mr. Brady. I, too, would like to welcome the gentlelady 
from Michigan. No disrespect to the returning members, but it 
is good to see another lovely face on our committee.
    The Chairman. Ms. Millender-McDonald.
    Ms. Millender-McDonald. Mr. Chairman, Mr. Hoyer tends to 
fill voids no matter where they are, so we are happy he is 
filling the void this morning.
    It is good to have you here, Mr. Whip.
    The Chairman. I now ask unanimous consent that members have 
7 legislative days to submit material into the record and for 
those statements and materials to be entered into the 
appropriate place in the record. Without objection, the 
material will be so entered.
    I also ask unanimous consent the staff be authorized to 
make technical and conforming changes on all matters considered 
by the committee at today's hearing. Without objection, so 
ordered.
    And having completed our business for this meeting, the 
committee is hereby adjourned.
    [Whereupon, at 10:08 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
